U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Trading Technologies International, Inc. v. IBG LLC, et al,
S.CtNo. 19-522

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 18,
2019, and placed on the docket on October 22, 2019. The government's response is due on
November 21, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 23, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0522
TRADING TECHNOLOGIES INTERNATIONAL, INC.
IBGLLC,ETAL.

STEVEN F. BORSAND
TRADING TECHNOLOGIES INTERNATIONAL
222 S. RIVERSIDE PLAZA
SUITE 1100
CHICAGO, IL 60606
ANDREW M. GROSSMAN
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036
202-861-1697
AGROSSMAN@BAKERLAW.COM

